 TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           National Research Program Audits
                          of Individuals Are Closely Monitored,
                               but the Quality of Tests for
                            Unreported Income Is a Concern



                                         September 15, 2011

                                 Reference Number: 2011-30-102




    This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
     and information determined to be restricted from public release has been redacted from this document.

 RedactionLegend:
 1 = Tax Return/Return Information



Phone Number | 202-622-6500
Email Address | TIGTACommunications@tigta.treas.gov
Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


NATIONAL RESEARCH PROGRAM                            WHAT TIGTA FOUND
AUDITS OF INDIVIDUALS ARE
                                                     Because of its statistical validity, legislators and
CLOSELY MONITORED, BUT THE                           policy makers consider the NRP an extremely
QUALITY OF TESTS FOR UNREPORTED                      important program, and IRS management
INCOME IS A CONCERN                                  reflected this priority in the emphasis given to
                                                     the current phase of individual audits. IRS
                                                     management closely monitored the sampling
Highlights                                           methodology and implementation schedule for
                                                     NRP audits. As a result, the NRP is on track to
Final Report issued on                               begin providing updated Tax Gap estimates by
September 15, 2011                                   the end of Calendar Year 2011.
                                                     Although the IRS was successful in
Highlights of Reference Number: 2011-30-102
                                                     implementing the NRP schedule, the tests for
to the Internal Revenue Service Commissioner
                                                     unreported income during audits need to be
for the Small Business/Self-Employed Division
                                                     improved. TIGTA evaluated a nonstatistical
and the Director, Office of Research, Analysis,
                                                     sample of closed Tax Years 2006, 2007, and
and Statistics.
                                                     2008 NRP audits (10 for each year) and
IMPACT ON TAXPAYERS                                  identified that the income reported on the return
                                                     was not properly verified in four of the 30 audits,
The Internal Revenue Service (IRS) is                which may have adversely affected the accuracy
conducting a multiyear National Research             of the audit results for each of the four audits by
Program (NRP) study to measure the reporting         $10,000 or more. NRP quality reviewers found
compliance among individual taxpayers. The           an even higher percentage of audits (roughly
IRS must ensure the data collected are as            40 percent) in their nonstatistical samples for
reliable as possible because the data are used       which the income reflected on returns was not
as planning tools for formulating strategies to      properly verified during NRP audits conducted in
meet the goals of improving service and              Fiscal Years 2008, 2009, and 2010.
enforcing the tax laws so everyone meets their
obligation to pay taxes.                             WHAT TIGTA RECOMMENDED
WHY TIGTA DID THE AUDIT                              TIGTA has already made recommendations in
                                                     prior reports to strengthen the weaknesses
This audit was initiated to determine whether the    identified in the tests for unreported income
NRP is being properly implemented and                during audits. The SB/SE Division has
providing reliable results for making strategic      responded with improvement efforts that are
planning decisions. The NRP is a unique              currently underway to address these
program because it gives the IRS the capability      weaknesses. Consequently, TIGTA is not
to make statistically reliable estimates of tax      making any additional recommendations at this
reporting compliance nationwide from a               time.
relatively small sample of audits.
                                                     Although TIGTA made no recommendations in
This, in turn, provides data needed for              this report, IRS officials were provided an
measuring the difference between the taxes that      opportunity to review the draft report. IRS
taxpayers should pay and the amount that is          management did not provide any report
paid voluntarily and on time (Tax Gap), updating     comments.
audit selection and resource allocation systems,
identifying ways to improve voluntary
compliance, and estimating the revenue from
proposed legislative and administrative changes.
                                             DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 15, 2011



 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                DIRECTOR, OFFICE OF RESEARCH, ANALYSIS, AND
                STATISTICS


 FROM:                  (for) Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report –National Research Program Audits of Individuals
                              Are Closely Monitored, but the Quality of Tests for Unreported Income
                              Is a Concern (Audit # 201030011)

 This report presents the results of our review to determine whether the National Research
 Program Individual Reporting Compliance Study is being properly implemented and providing
 reliable results for making strategic planning decisions. This review was part of our Fiscal
 Year 2010 Annual Audit Plan and addresses the major management challenge of Tax
 Compliance Initiatives.
 Although we made no recommendations in this report, we did provide Internal Revenue Service
 (IRS) officials an opportunity to review the draft report. IRS management did not provide us
 with any report comments.
 Copies of this report are also being sent to the IRS managers affected by the report.
 Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.
                                   National Research Program Audits of Individuals
                                    Are Closely Monitored, but the Quality of Tests
                                         for Unreported Income Is a Concern




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Sampling Methodology and Implementation Schedule for
          National Research Program Study Audits Were Closely Monitored............ Page 3
          The Quality of Tests for Unreported Income Conducted During
          National Research Program Study Audits Needs Improvement ................... Page 6

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Summary of Quality Attributes Considered During
          Area Office National Research Program Quality Review
          of Examinations ............................................................................................ Page 16
        National Research Program Audits of Individuals
         Are Closely Monitored, but the Quality of Tests
              for Unreported Income Is a Concern




                Abbreviations

FY        Fiscal Year
IRS       Internal Revenue Service
NQRS      National Quality Review System
NRP       National Research Program
SB/SE     Small Business/Self-Employed
TIGTA     Treasury Inspector General for Tax Administration
TY        Tax Year
                             National Research Program Audits of Individuals
                              Are Closely Monitored, but the Quality of Tests
                                   for Unreported Income Is a Concern




                                            Background

The Internal Revenue Service (IRS) has two strategic goals. The first is to improve service to
make voluntary compliance easier, and the second is to enforce the laws to ensure that everyone
meets their obligations to pay taxes. To achieve its goals, the IRS depends on voluntary
compliance, which relies on individual citizens to report their income freely and voluntarily,
calculate their tax liability correctly, and file a tax return on time. There are three primary
measures of voluntary compliance:
    •   Filing compliance – the percentage of taxpayers with a filing requirement who file
        returns on time.
    •   Payment compliance – the percentage of tax reported on timely filed returns that is paid
        on time.
    •   Reporting compliance – the accuracy of tax reported on time.
In Fiscal Year (FY) 2000, the IRS established the National Research Program (NRP)1 Office and
charged it with addressing voluntary compliance in these three areas. The NRP Office
completed its first reporting compliance study of taxpayers who file U.S. Individual Income Tax
Returns (Form 1040) using information from Tax Year (TY)2 2001. The results of this study
were used to help the IRS estimate the Tax Gap, which is the difference between the total taxes
that taxpayers should have paid and the total taxes that were actually paid timely. The IRS
estimated the yearly gross Tax Gap at approximately $345 billion. Within the gross Tax Gap,
late filing and nonfiling of tax returns accounted for about $27 billion and underpayment of
reported taxes accounted for approximately $34 billion. The remaining $284 billion
(approximate) was due to improper reporting, and the vast majority of that improper reporting
came from individual taxpayers.
The IRS selects the majority of tax returns for audit based on the data obtained from the TY 2001
NRP study. That study involved examining a sample of about 46,000 tax returns and strained the
IRS’s examination work plan for that year. Working NRP study examinations all in 1 year used
IRS resources that would have normally been used to work higher productive cases.
Recognizing the need for more current information and balancing that need with performing its
annual examination work plan, the NRP Office initiated a new Individual Reporting Compliance


1
  The NRP Office is responsible for determining filing, payment, and reporting compliance by taxpayers for
different types of taxes.
2
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
                                                                                                          Page 1
                         National Research Program Audits of Individuals
                          Are Closely Monitored, but the Quality of Tests
                               for Unreported Income Is a Concern



Study (hereafter referred to as the NRP study or the study), beginning in October 2007. The
methodology for this study lessens the impact on the annual examination work plan because it
spreads out the NRP study examinations over 3 consecutive years. The new study also calls for
collecting data every year for the foreseeable future, which should allow the information to be
more current and updated regularly.
The current NRP study was designed to use random samples of about 13,200 Forms 1040 for
3 consecutive years. The samples are intended to be representative of the individual taxpayer
populations. The examinations that began in October 2007 were comprised of TY 2006 returns.
The IRS continued the similar methodology the following year to examine a comparable sample
of TY 2007 returns. When data from the third year of the study (TY 2008) are ready for
analysis, the resulting estimates, based on combined data for all 3 tax years, should have a
statistical precision comparable to that of the TY 2001 study. This methodology will also allow
the IRS to update compliance estimates and workload identification models annually.
The NRP study audit process can be more detailed than the regular enforcement audit process
and place greater burden on examiners. As part of the audit, examiners must respond to a
comprehensive set of NRP study research questions about the taxpayer. The questions are
designed to capture the various characteristics of the taxpayer. NRP study audits also require
additional oversight by managers at the national, area, and local levels.
At the national level, the NRP study is coordinated by the IRS’s Office of Research, Analysis,
and Statistics. At the Area Office level, an NRP Area Territory Manager is the key contact point
and oversees the quality of the examinations. In addition, an NRP Coordinator (appointed by
Planning and Special Programs management) assists with planning and monitoring NRP study
audits. At the local level, each NRP study audit must be reviewed and approved by the group
manager. Thereafter, the examinations may be selected for review by the Area Office NRP
Quality Review Team and the staff of the National Quality Review System (NQRS).
This review was performed at the Office of Research, Analysis, and Statistics in
Washington, D.C., and the Small Business/Self-Employed (SB/SE) Division Headquarters
Office in New Carrollton, Maryland, during the period August 2010 through April 2011. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. Detailed information on our audit
objectives, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                           Page 2
                              National Research Program Audits of Individuals
                               Are Closely Monitored, but the Quality of Tests
                                    for Unreported Income Is a Concern




                                      Results of Review

The NRP is an extremely important program, and IRS management reflected this priority in the
emphasis given to the first series of individual audits using the 3-year rolling methodology.3 All
levels of IRS management closely coordinated efforts in monitoring the implementation of the
NRP study schedule. As a result, the program is on track to issue the preliminary updated Tax
Gap estimates, based on TYs 2006 and 2007 examination results, at the end of Calendar
Year 2011. The final Tax Gap estimate, based on TYs 2006 through 2008 examination results, is
planned for May 2012. The new workload selection and resources allocation systems will go
into effect in Calendar Year 2013.
Although the IRS was very successful in implementing the NRP study schedule, the quality of
tests for unreported income during audits needs to be improved. Both the Treasury Inspector
General for Tax Administration (TIGTA) and the IRS have identified quality concerns with
income testing that may be adversely affecting the accuracy of NRP study audit results.

The Sampling Methodology and Implementation Schedule for National
Research Program Study Audits Were Closely Monitored
The NRP is a unique program because it gives the IRS the capability to make statistically reliable
estimates of tax reporting compliance nationwide from a relatively small sample of audits. This,
in turn, provides data needed for measuring the Tax Gap, updating audit selection and resource
allocation systems, identifying ways to improve voluntary compliance, and estimating the
revenue from proposed legislative and administrative changes. Legislators and policy makers
consider the NRP an extremely important program because of its statistical validity. For
example, in June 2009,4 we reported that the IRS had taken the extra steps of contracting with an
outside research firm to evaluate the planned methodology for the NRP. The firm concluded the
3-year sampling methodology developed by IRS statisticians was appropriate for providing
estimates of reporting compliance and the data needed to update computer formulas for selecting
returns for audits. We also reported, using a statistician who independently verified that the
sample size was sufficient to measure the statistical reliability of results, the related formulas and
calculations were accurate and consistent, and a multiyear strategy is an acceptable approach for

3
  An individual reporting compliance study will be conducted every year, and the 3 most recent tax years will be
combined to achieve optimal statistical precision. For example, when the TY 2009 study is completed, the results
from TYs 2007–2009 will be combined (TY 2006 will be dropped off) to arrive at the new individual reporting
compliance measures.
4
  An Appropriate Methodology Has Been Developed for Conducting the National Research Program Study to
Measure the Voluntary Compliance of Individual Income Taxpayers (Reference Number 2009-30-086,
dated June 17, 2009).
                                                                                                          Page 3
                              National Research Program Audits of Individuals
                               Are Closely Monitored, but the Quality of Tests
                                    for Unreported Income Is a Concern



performing the study. Additionally, we found that examiners had received the nationally
developed NRP study training for conducting individual audits.
Overall, the NRP study sample includes about 42,637 returns and is designed to be representative
of the population from about 424 million individual returns filed for TYs 2006 through 2008.
The success of any project of this magnitude and importance hinges on effective planning and
monitoring. During this NRP study review, we found that IRS management at all levels closely
coordinated efforts in monitoring the progress of the NRP study schedule.
Figure 1 summarizes our evaluation of the NRP study audit workload and shows that after the
42,637 sample cases were selected, the tax returns were timely retrieved from IRS files and
forwarded to the IRS Cincinnati Campus.5 The personnel in the Austin Campus also promptly
initiated the case building process.6 The tax return and case building information was packaged
into NRP study cases at the Cincinnati Campus, where classification by technically proficient
and experienced revenue agents7 and tax compliance officers8 also took place. Based on their
review of the tax returns and the case building information, the classifiers determined which
returns would be audited and which could be accepted as filed. For the returns that were selected
for audit, the case files were sent to the IRS Area Offices9 or Cincinnati Campus Correspondence
function for audit initiation.




5
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
6
  Case building is the process of adding information from IRS sources to the case file prior to classification.
7
  Revenue agents conduct independent onsite examinations of income tax returns that cover a diverse spectrum of
individual and business taxpayers using a wide range of financial and other investigative skills.
8
  Tax compliance officers plan and conduct examinations that are conducive to being performed in an office setting.
9
  An Area Office is a geographic organizational level used by IRS business units and offices to help their specific
types of taxpayers understand and comply with tax laws and issues.
                                                                                                           Page 4
                              National Research Program Audits of Individuals
                               Are Closely Monitored, but the Quality of Tests
                                    for Unreported Income Is a Concern



                         Figure 1: Key Milestones for NRP Study Audits

         Key Milestone         Planned Start        Actual Start          Status as of March 31, 2011

                                                TY 2006 Cases

      Locate Cases              February 2007       February 2007          Forty-nine audits remain to be
                                                                      completed of 12,379 returns selected for
                                                                       examination. The IRS is analyzing and
      Case Build                 March 2007          March 2007           perfecting the examination data
                                                                                      collected.
      Classification10            July 2007           July 2007
                                                                         The total sample was 13,402 cases,
                                                                          which included 1,023 returns the
      Start Audits              October 2007        October 2007
                                                                       Classification function accepted as filed.

                                                TY 2007 Cases

                                                                       Three hundred fifty-nine audits remain
      Locate Cases              February 2008       February 2008
                                                                         to be completed of 13,115 returns
                                                                       selected for examination. The IRS is
      Case Build                 March 2008          March 2008             analyzing and perfecting the
                                                                             examination data collected.
      Classification              July 2008           July 2008          The total sample was 14,560 cases,
                                                                          which included 1,445 returns the
      Start Audits              October 2008        October 2008       Classification function accepted as filed.

                                                TY 2008 Cases

      Locate Cases              February 2009        February 2009      Approximately 6,383 audits remain to
                                                                        be completed of the 13,776 selected
      Case Build                 March 2009           March 2009                 for examination.

      Classification              July 2009            July 2009         The total sample was 14,675 cases,
                                                                           which included 899 returns the
      Start Audits               October 2009        October 2009      Classification function accepted as filed.

     Source: NRP officials.

While we only reviewed workload and inventory management through the audit initiation phase,
we concluded that controls had been effectively implemented to ensure NRP study audits are
receiving the proper attention. Besides effectively implementing workload and inventory
controls, quality controls were implemented over NRP study audits that are more extensive than
the quality controls over regular audits.
Unlike regular audits, a nonstatistical sample of closed NRP study audits are evaluated by Area
Office NRP study quality reviewers using the NQRS to document their reviews. The purpose of
NQRS reviews is to collect information about audit quality and communicate areas of concern to



10
 The NRP Office conducts four 2-week classification sessions each year. The first session occurs during the last
week in July or the first week of August, and the final session takes place the following March.
                                                                                                                    Page 5
                          National Research Program Audits of Individuals
                           Are Closely Monitored, but the Quality of Tests
                                for Unreported Income Is a Concern



management for corrective action, if needed. To define audit quality, the NRP study uses
10 quality attributes (see Appendix IV for details on the quality attributes and their definitions).
At the local level, group managers have the primary responsibility for ensuring the examiners
they supervise conduct quality NRP study audits. To assist group managers in meeting this
responsibility, NRP study guidelines require that group managers evaluate at least one open and
one closed NRP study audit for each examiner they supervise as part of the examiner’s
performance evaluation. Guidelines also require group managers assess the overall quality of
every NRP study audit before the IRS closes the case. The foremost reasons for the reviews are
to reinforce the importance of adhering to the audit quality attributes, as well as to pinpoint and
correct performance and quality gaps.

The Quality of Tests for Unreported Income Conducted During
National Research Program Study Audits Needs Improvement
We evaluated a nonstatistical sample of 10 closed NRP study audits from each TY (2006 through
2008) and identified that for 4 of the 30 audits the income reported on the return was not
properly verified. This condition may have adversely affected the accuracy of the audit results
for each of the 4 audits by $10,000 or more. In conducting our reviews, we obtained estimates of
personal living expenses published by the Bureau of Labor Statistics that are also used by the
IRS. We used the estimated Bureau of Labor Statistics personal living expenses along with
available information in the audit documentation to do a cash transaction (Cash T) analysis for
our sample cases. We found that 4 audits were closed without addressing the reason business
expenditures and other items deducted on the returns, when combined with estimated personal
living expenses of the taxpayers, exceeded the income reported by more than $10,000. In 3 of
the 4 audits, the estimated expenses exceeded the income on the return by more than $35,000.
The considerable differences noted between expenditures and income raise serious questions
about whether there were additional sources of income that should have been reported on the
returns or if expenses were overstated.
To determine whether this quality problem was more widespread, we evaluated the quality
results reported by the Area Office NRP study quality reviewers. As summarized in Figure 2, in
their nonstatistical samples, the Area Office NRP study quality reviewers found an even higher
percentage of cases (roughly 40 percent) where the income reported on returns was not properly
verified during NRP study audits conducted in FYs 2008, 2009, and 2010. IRS officials told us
that failing the income determination standards does not mean there is unreported income. It
could mean the case file was not properly documented or audit steps were not performed in
accordance with established guidelines. Nevertheless, without proper documentation or the
completion of necessary audit steps, the examiners have not verified the accuracy of the income
reported.



                                                                                              Page 6
                           National Research Program Audits of Individuals
                            Are Closely Monitored, but the Quality of Tests
                                 for Unreported Income Is a Concern



                      Figure 2: Percentage of NRP Study Cases
               for Which Income Determination Standards Were Not Met
                                                            Percentage of     Percentage of  
                                                            Revenue Agent    Tax Compliance 
                     Report Period                              Audits        Officer Audits 
  FY 2008                                                         34%             40% 
  FY 2009                                                         47%             46% 
  FY 2010                                                         38%             39% 
 Source: IRS NQRS Quality Attribute Accuracy Reports for FYs 2008 - 2010.

Although Area Office NRP quality reviewers did not always quantify the potential dollar effect
for the problems they identify when reviewing NRP study audits, they did complete narrative
comments that described their findings for the cases reviewed and provided feedback within their
areas on the trends identified in their reviews. As the following excerpts from some of their
comments between March 15, 2010, and May 30, 2010, indicate, properly verifying income
during NRP study audits is a concern nationwide.
   • *************************1*******************************************
       **************************1******************************************
       **************************1*******************.
   • **************************1*****************************************
       ***************************1****************************************
       ***************************1****************.
   • ***************************1****************************************
       ***************************1******************************************
       *************1**************.
   • ****************************1*****************************************
       ******************1*********************.
   • ****************************1*****************************************
       ******************1**************.
   • *****************************1***************************************
       *****************************1***************************************
       *****************************1***************************************
       *******************1**************.
   • ******************************1***************************************
       *********************1***************.

                                                                                           Page 7
                            National Research Program Audits of Individuals
                             Are Closely Monitored, but the Quality of Tests
                                  for Unreported Income Is a Concern



     • *******************************1**************************************
         ************************1*********************
     • *******************************1*************************************
         ********************************1*************************************
         ************************1**************************.
     • *********************************1***********************************
         ********************************1************************************
         ************************1****************
     • *********************************1***********************************
         *************************1**********************
According to IRS officials, the reviewers are instructed to focus on what steps in the minimum
income probe were not properly completed. Reviewers do not document information on income
probes that were correctly completed due to time constraints when reviewing the cases. As a
result, the narratives may not be balanced since they focus solely on what audit step(s) were not
properly completed.
In considering the significance of the quality problems identified, it is important to recognize that
there are a number of legitimate reasons a taxpayer’s cash expenditures may exceed the income
reported on his/her return. For example, some individuals may have received loan proceeds or
are receiving financial help from relatives or friends. Still others may be paying their expenses
from savings accumulated in previous years. However, without additional testing, the IRS does
not know if the understatement shown on the preliminary Cash T analysis represents
underreported income or overstated expenses that could result in additional taxes, penalties, and
interest.
We believe it is equally important to recognize that the quality problems detected in NRP study
audits raise questions about the overall quality of the tests for unreported income during audits in
the SB/SE Division. If NRP study audits are among the most important and closely scrutinized
audits and have quality problems with tests for unreported income, it is reasonable to assume that
the thousands of enforcement audits conducted daily have similar problems.
In February 2010, the TIGTA reported11 finding 93 correspondence audits for which business
expenditures and other items deducted on the return, when combined with estimated personal
living expenses, exceeded the income on the return by more than $10,000. In 15 of the 93 audits,
the expenses exceeded the income on the return by more than $50,000. These audits were
identified from a statistically valid sample of 298 closed correspondence audits of individual
returns reporting sole proprietorship operations.

11
 Significant Tax Issues Are Often Not Addressed During Correspondence Audits of Sole Proprietors (Reference
Number 2010-30-024, dated February 24, 2010).
                                                                                                      Page 8
                            National Research Program Audits of Individuals
                             Are Closely Monitored, but the Quality of Tests
                                  for Unreported Income Is a Concern



In a subsequent audit, the TIGTA reported12 finding 30 audits for which sole proprietors may
have avoided tax and interest assessments totaling $289,251 because of quality problems with
the preliminary Cash T analyses. The 30 audits were identified from a statistical sample of
227 audits closed by field examiners. When the review results from the 30 audits were projected
to the population of 6,438 closed audits from which the sample was selected, the TIGTA
estimated, and the Commissioner, SB/SE Division, agreed, that 851 sole proprietors may have
avoided tax and interest assessments of approximately $8.2 million in 1 tax year.

The SB/SE Division is taking steps to better hold group managers and examiners
accountable for the quality of income testing during audits
The TIGTA made recommendations in our prior reports to strengthen the weaknesses identified
in the tests for unreported income during audits. The SB/SE Division responded with
improvement efforts that are currently underway and include taking better advantage of
performance feedback and other mechanisms in the IRS performance management system to
help ensure income is properly verified during audits, including those conducted under the NRP.
Consequently, the TIGTA is not making any additional recommendations at this time.
For example, the Director, Examination, SB/SE Division, issued written instructions on how
group managers can enhance the performance feedback they provide to examiners on the
adequacy of tests for unreported income. Enhancing performance feedback is important because,
as the TIGTA has previously reported,13 it can be a very effective tool in helping personnel
understand and meet their responsibilities. It also provides opportunities to give meaningful and
constructive performance feedback, pinpoint and address performance gaps, and hold personnel
accountable for following management directives and delivering results. The SB/SE Division
additionally formed the Examination Process Improvement Challenge team to develop solutions
to address income probe deficiencies. For example, this team published articles devoted to
examination of income and minimum income probes in the SB/SE Division’s newsletter.
To its credit, the SB/SE Division also recognized the need to hold group managers more
accountable for improving the quality of the tests performed for unreported income and began
establishing a related commitment in their FY 2011 performance agreements, which indicates an
effort on behalf of SB/SE Examination to improve the quality of income probes.
The commitments are intended to be tailored to individual developmental needs and provide the
basis for linking group manager critical job responsibilities with IRS balanced measures and
strategic goals and holding group managers accountable for their individual and group
performances. The commitments should also, according to the IRS, be clear, specific, and easily


12
   Tests for Unreported Income During Sole Proprietor Field Audits Can Be Strengthened (Reference Number
2010-30-105, dated September 9, 2010).
13
   Performance Management in the Large and Mid-Size Business Division’s Industry Case Program Needs
Strengthening (Reference Number 2005-30-084, dated May 27, 2005).
                                                                                                      Page 9
                                National Research Program Audits of Individuals
                                 Are Closely Monitored, but the Quality of Tests
                                      for Unreported Income Is a Concern



monitored and should include a numeric target or some other means of measurement.
Structuring each commitment so it contains these features enhances the ability of Territory
managers to hold group managers responsible for meeting these expectations.
As outlined below, the FY 2011 performance agreements for 10 of the group managers who were
associated with the closed NRP study audits we reviewed contained commitments related to
improving tests for unreported income similar to 1 of the following 4 examples.
       1. I will improve overall case quality and EQ14 Attribute 300 (Income Determination) as
          measured by NQRS by developing and implementing actions that will improve income
          probes and discussing and providing guidance on specific EQ attributes on a monthly
          basis …. Success will be measured based on … written feedback on EQ Attribute 300
          (Income Determination).
       2. I will improve the quality, effectiveness, and efficiency of income probes …. I will deliver
          tools and training to examiners supporting income examination techniques. … Success
          will be measured by supporting and contributing to improvement in overall quality scores
          with emphasis and focus on NQ Attribute 300 (Income Determination).
       3. I will take proactive steps to improve the quality, effectiveness, and efficiency of income
          probes …. I will take proactive steps to improve quality measured by Attribute 300
          (Income Determination), by focusing on this attribute during my reviews and by
          providing additional training to group members, as warranted …. Success will be
          measured by supporting a 5 [percent] Area Improvement in NQ Attribute 300 (Income
          Determinations) and an improvement in overall quality scores.
       4. I will improve the quality, effectiveness, and efficiency of income probes …. I will deliver
          tools and training to examiners supporting income examination techniques. … Success
          will be measured by supporting an improvement in overall Area quality scores; and
          delivering improvement in NQ Attribute 300 (Income Determination) by providing tools
          and training through Income Determination Workshops and discussions at the group
          level.
Because we did not perform an in-depth review of group manager commitments, we do not have
a basis for recommending specific changes to how the commitments were developed, were
established, and will be ultimately rated. However, we did conduct a cursory review of the
commitments listed above and have some observations that SB/SE Division officials may find
useful in their continuing efforts to improve the quality of tests for unreported income.
Specifically, we believe that while each of the above commitments is a worthwhile goal, the first
three commitments have some shortcomings that could make it difficult to judge whether the
individual group manager met the commitment because the statements are either vague about


14
     EQ and NQ are referring to the examination quality attributes in the NQRS.
                                                                                               Page 10
                         National Research Program Audits of Individuals
                          Are Closely Monitored, but the Quality of Tests
                               for Unreported Income Is a Concern



how success will be measured (commitment number 1) or what specifically the group manager
intends to do (commitment numbers 2 and 3). By comparison, commitment number 4
specifically indicates the type of tools and training that will be delivered to improve income
probes and the potential impact of delivering the specified tools and training. A mid-level
manager could monitor whether this group manager provided the tools and training and held
discussions as promised. A mid-level manager may be able to also use statistics in assessing
whether the tools, training, and discussions had the intended impact.




                                                                                        Page 11
                             National Research Program Audits of Individuals
                              Are Closely Monitored, but the Quality of Tests
                                   for Unreported Income Is a Concern



                                                                                               Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine whether the NRP Individual Reporting
Compliance Study is being properly implemented and providing reliable results for making
strategic planning decisions. Unless otherwise noted, our limited tests of the reliability of data
obtained from NRP inventory tracking system did not identify any errors. We tested the
reliability of the data by scanning the data received for blank, incomplete, illogical, or improper
data. In addition, we traced a judgmental sample from TYs1 2006 through 2008 data sets to the
source IRS files to ensure accuracy. To accomplish the objectives, we:
I.      Reviewed source material to gain an understanding of the NRP and rules, procedures, and
        processes used for the study. These sources included the Internal Revenue Manual and
        NRP training modules.
II.     Interviewed NRP management to assist in identifying and evaluating the procedures and
        process used to implement the sampling methodology.
III.    Analyzed the TYs 2006 through 2008 tax returns selected for the NRP study. We
        compared the sampling implementation to the sampling plan and consulted the TIGTA’s
        contracted statistician regarding the impact that deviations of the number of tax returns in
        the planned sampling strata have on the statistical validity of the results.
IV.     Evaluated the quality of NRP study examinations and determined if quality controls were
        established and properly followed by reviewing a judgmental sample of 10 examination
        cases from each of TYs 2006 through 2008. We judgmentally selected the 30 cases
        because, due to time constraints, we wanted to probe if there are significant problems.
        A. For TY 2006, selected the sample from the 12,478 examinations that were closed as
           of May 2010.
        B. For TYs 2007 and 2008, selected the sample from the population of NRP study tax
           returns with Profit of Loss From Business (Schedule C) or Supplemental Income and
           Loss (Schedule E), income less than $200,000,2 and examinations closed during the
           period FY 2008 through the third quarter of FY 2010. The TYs 2007 and 2008
           population sizes were 3,052 and 271 cases, respectively.


1
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
2
  We used Activity Codes 271 and 274-277, which represent U.S. Individual Income Tax Returns with total positive
income less than $200,000.
                                                                                                       Page 12
                         National Research Program Audits of Individuals
                          Are Closely Monitored, but the Quality of Tests
                               for Unreported Income Is a Concern



V.     Analyzed the results from the FYs 2008 through 2010 Area Office NRP quality reviews
       of closed examinations.
VI.    Determined the effect of poor quality examination of income issues by reviewing a
       sample of 23 cases from the 78 cases that the FY 2010 third Quarter Area Office NRP
       quality review identified as not meeting income determination standards. We
       judgmentally selected the 23 taxpayers because, due to time constraints, we wanted to
       focus on situations where the IRS quality review narrative comments provided specific
       examples.
VII.   Reviewed the FYs 2010 and 2011 group manager performance agreements for
       10 managers involved in the 23 cases reviewed to assess the opportunities that may exist
       to improve accountability of the IRS’s expectations for the quality of the audits under
       their supervision.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objectives: the NRP’s policies, procedures, and
practices for selecting and examining individual tax returns and its quality review of examination
results. We evaluated these controls by reviewing source material, interviewing management,
and reviewing a judgmental sample of NRP study examinations and Area Office NRP quality
review results.




                                                                                          Page 13
                        National Research Program Audits of Individuals
                         Are Closely Monitored, but the Quality of Tests
                              for Unreported Income Is a Concern



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Alan Lund, Audit Manager
Steven Stephens, Audit Manager
Julia Tai, Lead Auditor
Stanley Pinkston, Senior Auditor
William Tran, Senior Auditor




                                                                                      Page 14
                       National Research Program Audits of Individuals
                        Are Closely Monitored, but the Quality of Tests
                             for Unreported Income Is a Concern



                                                                      Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, National Research Program RAS:NRP
Director, Examination, Small Business/Self-Employed Division SE:S:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Director, Office of Research, Analysis, and Statistics RAS




                                                                            Page 15
                              National Research Program Audits of Individuals
                               Are Closely Monitored, but the Quality of Tests
                                    for Unreported Income Is a Concern



                                                                                             Appendix IV

          Summary of Quality Attributes Considered
        During Area Office National Research Program
               Quality Review of Examinations


  Attribute Group               Attributes                   Issues Considered by Quality Reviewers
       Planning         Information Document          Did the examiner prepare appropriate information
                        Requests                      document requests?
                        Prior, Subsequent Year,       Did the examiner consider the prior, subsequent, and
                        and Related Returns           related tax returns in the audit when warranted?
       Income           Exam Income                   Did the examiner use appropriate techniques to
    Determination       Determination                 determine income and properly consider the applicable
                                                      tax law?
  Investigative and     Audit Compliance              Did interviews with taxpayers, representatives, and third
  Audit Techniques      Interview                     parties provide a clear understanding of the taxpayer and
                                                      his/her income-producing activities?
                        Interpreted and Applied       Did the examiner interpret and apply the tax law
                        Tax Law Correctly             correctly?
                        Civil Penalty                 Did the examiner appropriately consider and compute
                        Determination                 applicable civil penalties?
     Timeliness         Time Spent on                 Was the time spent on the examination appropriate
                        Examination                   considering the complexity of the issues?
 Customer Relations Taxpayer Rights                   Did the examiner advise the taxpayer or representative
 and Professionalism                                  on all rights?
   Documentation        Workpapers Support            Did the examination workpapers support the
    and Reports         Conclusion                    conclusion?
                        Report Writing                Were report writing procedures followed?
Source: Internal Revenue Manual and discussions with IRS SB/SE Division Examination function officials.




                                                                                                          Page 16
